                            MANAGEMENT ADVISORY REPORT
                         PRE-DEMAND AND DEMAND LETTERS FOR
                            DELINQUENT 9/11 DISASTER LOANS

                                        REPORT NUMBER 5-09
                                           January 11, 2005

                                            Washington, D.C.




The finding in this report is the conclusions of the Office of Inspector General’s Auditing Division based on
testing of SBA operations. The finding and recommendations are subject to review, management decision,
and corrective action in accordance with existing Agency procedures for follow-up and resolution. This
report may contain proprietary information subject to the provisions of 18 USC 1905 and must not be
released to the public or another agency without permission of the Office of Inspector General.
                      U.S. SMALL BUSINESS ADMINISTRATION
                          OFFICE OF INSPECTOR GENERAL
                              WASHINGTON, D.C. 20416


                                                           MANAGEMENT ADVISORY
                                                                     REPORT
                                                      Issue Date: January 11, 2005
                                                      Report Number: 5-09

To:           James E. Rivera
               Associate Administrator, Office of Financial Assistance


From:      Robert G. Seabrooks
           Assistant Inspector General for Auditing

Subject: Management Advisory Report on Pre-Demand and Demand Letters for
         Delinquent 9/11 Disaster Loans

        Attached is a copy of the subject management advisory report. The purpose of
this advisory report is to inform you of an issue identified during our on-going review of
delinquent disaster loans that were made in response to 9/11 attacks on the World Trade
Center and the Pentagon, as well as expanded economic injury loans made nationwide.

        The review of selected loans is being accomplished to determine if they were
approved, disbursed, and serviced appropriately and/or contained indicators of fraud. In
those instances where potential fraud is disclosed, the loan is referred to our
Investigations Division for further review.

        Our review disclosed that program officials were not always sending pre-demand
and demand letters to delinquent borrowers. The finding in this report is the conclusions
of the Office of Inspector General's Auditing Division. The recommendations are subject
to review and implementation of corrective action in accordance with existing Agency
procedures for audit follow-up.

       Please provide your management decision for each recommendation addressed to
you within 30 days from the date of this report using the attached SBA Forms 1824,
Recommendation Action Sheet.

       Should you or your staff have any questions, please contact Garry Duncan,
Director, Credit Programs Group, at (202) 205-[FOIA Ex.2].

Attachments
                        MANAGEMENT ADVISORY REPORT
                     PRE-DEMAND AND DEMAND LETTERS FOR
                        DELINQUENT 9/11 DISASTER LOANS
                                Washington, D.C.

Objective

       The objective of the ongoing review is to determine if delinquent 9/11 disaster
loans were approved, disbursed, and serviced appropriately and/or contained indicators of
fraud. Since our review was limited in scope, we did not perform steps necessary to
assess whether problems existed with all problem loans.

Background

       An on-going Office of Inspector General review was conducted of disaster loans
made in response to 9/11 attacks on the World Trade Center and the Pentagon. The
review also included expanded 9/11 economic injury loans made nationwide. As of
September 30, 2004, 1,495 of these loans valued at $208.8 million were delinquent.1

        Office of Management and Budget (OMB) Circular A-129 provides policies on
Federal credit program delinquent debt collection. It states that agencies shall promptly
act on the collection of delinquent debts, using all available collection tools to maximize
collections. Each agency shall develop a systematic process for the collection of
delinquent accounts. Collection strategies shall take full advantage of available
collection tools. For instance, as soon as an account becomes delinquent, agencies should
send demand letters to the debtor. The demand letter must give the debtor notice of each
form of collection action and type of financial penalty the agency plans to use in
collecting the debt.

        Standard Operating Procedure (SOP) 50 51 1 titled “Loan Liquidation and
Acquired Property”, dated July 6, 1993, discussed the use of demand letters. Demand
letters were to be considered an important part of the liquidation process. The specific
requirement for demand letters, however, was eliminated when this SOP expired in
December 1997.

        The current SOP 50 51 2 includes very general guidance on loan debt collection
actions. Specifically, the SOP states that a loan should be placed in liquidation when all
reasonable alternatives to collect the debt have been exhausted. More specific guidance
is included in the Home Loan Servicing SOP 50 52 1 which states collection efforts on
loans at the earliest stages of delinquency should be standardized as much as possible.


1
 Delinquent loans are those that have been charged off, in liquidation, or are at least 61 days
delinquent.




                                                    1
Standardization includes the development and use of increasingly emphatic collection
letters.

Pre-demand and demand letters not always sent

       An on going review of 37 delinquent 9/11 disaster loans disclosed that
pre-demand or demand letters should have been sent to borrowers of 17 loans. SBA,
however, did not send letters to 13 borrowers. The loans had been delinquent for an
average of 279 days. The attachment to this report identifies the loans and SBA offices
responsible for liquidation actions. Demand letters were not needed for the remaining
20 loans because of bankruptcy, offer-In-compromise, legal actions, or under 90 days
delinquent.

        The Liquidation Center’s liquidation program guidance outlines requirements for
contacting delinquent borrowers. The program includes calling the borrower, if possible.
If borrower contact is not made, a pre-demand letter would be sent. If the borrower does
not respond to this letter, a demand letter is then issued.

         Discussions with the Director, loan officers, and supervisors at the National
Disaster Liquidation Center in Santa Ana indicated that the above procedure would be
followed if sufficient staff were available. However, the Center generally does not send
letters to seriously delinquent borrowers. Instead, the staff is used to accomplish
servicing actions such as bankruptcy, collateral activities, and/or borrower initiated offers
of compromise. The use of staff for these required servicing activities appears to
adversely affect SBA’s ability to issue pre demand and demand letters as required under
OMB Circular A-129 as discussed above.

       Pre-demand and demand letters are instruments that servicing centers should
aggressively use in an attempt to collect debt owed on defaulted disaster loans including
the $208.8 million balance owed on delinquent 9/11 disaster loans.

Recommendation

We recommend that the Director, Office of Financial Assistance take the following
actions:

1A.     Revise Standard Operating Procedure 50 51 2 to direct servicing centers send
        timely pre-demand and demand letters to delinquent borrowers. Such letters
        should be maintained in the loan file.

1B.     Ensure that sufficient staff resources are devoted to Center activities to fulfill the
        timely issuance of pre-demand and demand letters as required by OMB A-129
        requirements.




                                              2
Management Comments

        In response to recommendation 1A the Office for Financial Assistance agreed to
revise Standard Operating Procedure 50 51 2 to direct service centers to send out timely
pre-demand and demand letters. Appropriate acceleration and demand language will be
re-inserted into SOP 50 51 2 to ensure that more complete instructions are available to
collect delinquent debt.

         OFA added that it is not clear from the report that the OIG reviewed all agency
records including the PMQD26 screens before concluding that servicing centers failed to
properly issue pre-demand and demand letters. Evidence that pre-demand letters were
sent is included in the agency’s electronic DLCS/PMQD 26 system for each loan but not
maintained in the physical loan file. The agency considers the DLCS chronology system
an official record and often centers do not print and place pre-demand letters in loan files
but only reference those letters in the “chron” record. With regard to disaster home loan
servicing, all borrowers are called within one week after being classified as past due for
11 days. If the borrower is non-responsive, these calls continue for 59 days. After day
60, a written pre-demand letter is sent via certified mail to ensure delivery. Again, copies
of these letters are not usually printed and placed in the loan file but are referenced in the
chron record. If the borrower is still non-responsive the loan is sent to the Treasury
Offset Group for further collection efforts.

         In response to recommendation 1B the Office of Financial Assistance takes
exception with the recommendation saying that open-ended discussions with
servicing/liquidation personnel does not support the need for a given level of additional
employees. They further stated that such an inquiry to the staff of any SBA office would
elicit a similar answer.

       The entire management response is included at Appendix A.

OIG Evaluation of Management Comments

       Management comments to recommendation 1A are responsive.

        Management stated that it is not clear from the report that the OIG reviewed all
agency records including the PMQD 26 screens before concluding that servicing centers
failed to properly issue pre-demand and demand letters. Our loan review, in fact, did
include a review of PMQD 26 screens for each delinquent loan. We found no PMQD 26
references showing pre-demand or demand letters had been sent for loans identified as
needing such letters.

         Management added that the agency considers the DLCS chronology system an
official record and that often centers do not print and place pre-demand letters in loan
files but only reference those letters in the “chron” record. While our audit did not focus
on whether demand letters should be maintained in the SBA loan file,




                                              3
OMB Circular A-129 states that accurate and complete documentation is critical to
providing proper servicing of the debt and perusing collection of delinquent debt. The
circular also states that the demand letter must give the debtor notice of each form of
collection action and type of financial penalty the agency plans to use in collecting the
debt. We suggest that the actual demand letter would be the best evidence, in a court of
law, that the borrower received legally sufficient notice.

       Management submitted, with their management comments, a demand letter
template that the Fresno Commercial Loan Service Center issues on all disaster loans 70
days or more delinquent. None of the 13 loans identified, however, were serviced by the
Fresno Commercial Loan Center or any of the Home Loan Service Centers. The loans
referenced in the report were serviced by the Little Rock Commercial Loan Service
Center or the National Disaster Liquidation Center in Santa Ana.

       Management comments to recommendation 1.B are partially responsive.

       Management stated that an open-ended discussion with servicing/liquidation
personnel does not support the need for a given level of additional employees.
Recommendation 1.B does not require an increase in employment levels, but rather
suggests that sufficient Center staff resources be devoted to the timely issuance of pre-
demand and demand letters. Management should determine the actions needed to
accomplish the recommendation.




                                             4
            Responsible Office for Issuing Demand Letters


             Loan                        Office Assigned
           Number
  1      501 388 4003    Little Rock Commercial Loan Service Center
  2      505 531 4005    Little Rock Commercial Loan Service Center
  3      517 089 4010    Little Rock Commercial Loan Service Center
  4      523 369 4007    Little Rock Commercial Loan Service Center
  5      512 196 4000    Little Rock Commercial Loan Service Center*
  6      512 206 4003    Little Rock Commercial Loan Service Center*
  7      528 711 4003    Little Rock Commercial Loan Service Center*
  8      496 270 4003    Santa Ana Liquidation Center
  9      552 872 4000    Santa Ana Liquidation Center
  10     521 285 4008    Santa Ana Liquidation Center
  11     566 857 4005    Santa Ana Liquidation Center
  12     526 437 4008    Santa Ana Liquidation Center
  13     496 951 4008    Santa Ana Liquidation Center*


* Loan transferred to an SBA District Office for bankruptcy or other legal actions.




                                     5
